                                         July 12, 2007




MEMORANDUM TO:             Luis A. Reyes
                           Executive Director for Operations



FROM:                      Stephen D. Dingbaum /RA/
                           Assistant Inspector General for Audits


SUBJECT:                   AUDIT OF NRC’S NON-CAPITALIZED PROPERTY
                           (OIG-07-A-14)


Attached is the Office of the Inspector General’s (OIG) report titled, Audit of NRC’s Non-
Capitalized Property.

This report presents the results of the subject audit. Agency comments provided at the
exit conference on June 26, 2007, have been incorporated, as appropriate, into this
report. The agency did not provide formal comments.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG follow up as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915, or Steven Zane at 415-5912.

Attachment: As stated

cc:   V. Ordaz, OEDO
      M. Malloy, OEDO
      P. Tressler, OEDO
Electronic Distribution

Frank P. Gillespie, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
William M. McCabe, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
Luis A. Reyes, Executive Director for Operations
William F. Kane, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Waste, Research,
 State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director for Information Services
 and Chief Information Officer, OEDO
Vonna L. Ordaz, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Cynthia A. Carpenter, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
 and Environmental Management Programs
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
R. William Borchardt, Director, Office of New Reactors
Michael F. Weber, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
                     AUDIT REPORT


                   Audit of NRC’s Non-Capitalized Property

                         OIG-07-A-14     July 12, 2007




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                                                    Audit of NRC’s Non-Capitalized Property



EXECUTIVE SUMMARY

                  BACKGROUND

                  The Nuclear Regulatory Commission (NRC) has an established
                  property management program to account for and control property.1
                  Property management encompasses both capitalized2 and non-
                  capitalized3 property. This report focuses on NRC’s program to
                  account for and control non-capitalized property. As of June 2006,
                  non-capitalized property was comprised of almost 16,000 pieces of
                  equipment costing approximately $26 million.

                  The Space Planning and Property Management Branch (Property
                  Branch), Division of Facilities and Security, is currently responsible
                  for developing and administering the agency's property
                  management program, including the Space and Property
                  Management System (SPMS). Since March 1999, NRC
                  management has moved this responsibility to three different
                  divisions.

                  PURPOSE

                  This audit was conducted to determine whether NRC has
                  established and implemented an effective system of management
                  controls for maintaining accountability and control of non-
                  capitalized property.

                  RESULTS OF AUDIT

                  While NRC’s property management policies for non-capitalized
                  property provide a framework to control and safeguard property, the
                  program, as implemented, needs improvement to provide effective
                  control. Specifically:




1
  Management Directive 13.1, Property Management, defines government personal property as any
equipment, furniture, or supply items that are owned, leased, borrowed, donated, forfeited, or transferred
from another Federal agency, purchased with NRC funds, or otherwise in the possession or control of the
NRC.
2
  Management Directive 13.1 defines capitalized property as any NRC-purchased property with an initial
acquisition cost of $50,000 or more.
3
  Management Directive 13.1 defines non-capitalized property as NRC property with an initial acquisition
cost of less than $50,000.
                                                      i
                                                                        Audit of NRC’s Non-Capitalized Property



                   A.        SPMS data is not accurate;

                   B.        Controls for Information Technology (IT) property that may
                             contain personally identifiable information (PII) 4 are lacking;

                   C.        Physical security deficiencies exist; and

                   D.        The policy for notifying Office of the Inspector General (OIG)
                             of missing property needs improvement.

                   In light of NRC’s imminent growth in full-time equivalents (FTE),
                   and anticipated office relocations, it is increasingly important that
                   NRC maintain effective and efficient accounting and control over
                   non-capitalized property. Therefore, now is an opportune time for
                   NRC management to increase accountability for, and improve
                   control of, the property management program. An effective and
                   efficient property management program is essential to assure that
                   staff have the property needed to carry out their duties and assure
                   optimum utilization of staff time, property and fiscal resources.

                   RECOMMENDATIONS

                   This report makes recommendations to the Executive Director for
                   Operations to help NRC strengthen the effectiveness of
                   management controls with respect to maintaining accountability
                   and control of non-capitalized property. This report also
                   recommends that the threshold for accountable non-sensitive
                   property5 be raised so that property custodians can focus on
                   maintaining accurate and reliable property records for sensitive and
                   more expensive items.

                   AGENCY COMMENTS

                   At an exit conference held on June 26, 2007, agency managers
                   generally agreed with the audit findings and recommendations and
                   provided comments concerning the draft audit report. We modified
                   the report in response to the comments, as we deemed
                   appropriate. NRC reviewed these modifications and opted not to
                   submit formal written comments for the final version of this report.



4
  "Personally Identifiable Information (PII)" represents information about an individual that can be used to
distinguish or trace a person’s identity (e.g., Social Security Number, Date and Place of Birth, Mother’s
Maiden Name, etc.).
5
  MD 13.1 defines accountable property as any equipment, excluding furniture and supplies, that is complete
in itself, is of a durable nature with an expected life of 2 years or more, does not ordinarily lose its identity or
becomes a component of another article, and is not consumed in its useful life. Accountable property is
classified either as “sensitive” or as “non-sensitive.” Footnote 9 defines sensitive property.
                                                         ii
                                          Audit of NRC’s Non-Capitalized Property



ABBREVIATIONS AND ACRONYMS

       ADM               Office of Administration

       FTE               Full-Time Equivalent

       FY                Fiscal Year

       GAO               Government Accountability Office

       IT                Information Technology

       JFMIP             Joint Financial Management Improvement
                         Program

       MD                Management Directive

       NRC               Nuclear Regulatory Commission

       OIG               Office of the Inspector General

       OIS               Office of Information Services

       OMB               Office of Management and Budget

       PII               Personally Identifiable Information

       SPMS              Space and Property Management System

       Property Branch   Space Planning and Property Management
                         Branch




                               iii
                           Audit of NRC’s Non-Capitalized Property




[Page intentionally left blank.]




               iv
                                                                     Audit of NRC’s Non-Capitalized Property



TABLE OF CONTENTS

    EXECUTIVE SUMMARY.............................................................................. i
    ABBREVIATIONS AND ACRONYMS .......................................................... iii
    I.       BACKGROUND ................................................................................... 1
    II.      PURPOSE............................................................................................ 4
    III.     FINDINGS ............................................................................................ 5
           A. SPMS DATA IS NOT ACCURATE ............................................................ 5

           B. CONTROLS FOR INFORMATION TECHNOLOGY (IT) PROPERTY THAT MAY
              CONTAIN PERSONALLY IDENTIFIABLE INFORMATION (PII)
              ARE LACKING ....................................................................................... 12

           C. PHYSICAL SECURITY DEFICIENCIES EXIST .............................................. 14

           D. THE POLICY FOR NOTIFYING OFFICE OF THE INSPECTOR GENERAL (OIG)
              OF MISSING PROPERTY NEEDS IMPROVEMENT ....................................... 17

    IV.      AGENCY COMMENTS ........................................................................ 19
    V.       CONSOLIDATED LIST OF RECOMMENDATIONS ............................ 21


    APPENDIX
           A.     SCOPE AND METHODOLOGY ..................................................... 23




                                                      v
                           Audit of NRC’s Non-Capitalized Property




[Page intentionally left blank.]




               vi
                                                                  Audit of NRC’s Non-Capitalized Property



I.    BACKGROUND

                 The NRC has an established property management program to
                 account for and control property. Property management
                 encompasses both capitalized and non-capitalized property. This
                 report focuses on NRC’s program to account for and control non-
                 capitalized property. The planned growth in NRC’s FTE’s,6 coupled
                 with anticipated office relocations, heightens the importance of
                 having the right equipment, at the right place, with the right person,
                 at the right time, to facilitate efficient and effective mission
                 accomplishment. As of June 2006, non-capitalized property was
                 comprised of almost 16,000 pieces of equipment costing
                 approximately $26 million.

                 Guidance

                 Certain rules and regulations are in place to ensure that Federal
                 property is safeguarded, properly accounted for, and adequately
                 controlled to reduce the potential for waste, fraud, and
                 mismanagement. Below is a list of key guidance pertinent to
                 NRC’s accounting and control of non-capitalized property:

                      ¾ The Office of Management and Budget (OMB) Circular
                        A-123, Revised, Management's Responsibility for Internal
                        Control,

                      ¾ The Joint Financial Management Improvement Program
                        (JFMIP),7 Property Management Systems Requirements,
                        and

                      ¾ NRC Management Directive 13.1, Property Management,
                        revised January 14, 2002 (MD 13.1).




6
 The agency plans to increase the number of FTEs by 228 over the FY 2007 level by the end of
FY 2008.
7
 JFMIP is a joint undertaking of OMB, the Government Accountability Office, the Department of the
Treasury, and the Office of Personnel Management, to work in cooperation with each other and with other
agencies to improve financial management practices throughout the government.

                                                    1
                                                                                 Audit of NRC’s Non-Capitalized Property



                 Responsibility for Property Management

                 The Property Branch, Division of Facilities and Security, is currently
                 responsible for developing and administering the agency's property
                 management program, including the SPMS. Since March 1999,
                 NRC management has moved this responsibility to three different
                 divisions (see following chart). In addition to changing the reporting
                 lines, the Property Branch has experienced a turnover of both the
                 division director and the branch chief positions since
                 December 2005. In FY 2006, the estimated total resources
                 dedicated to administering NRC's property management program
                 was approximately $923,000 and 5.25 FTEs.8

                                    Responsibility for Property Management


                             Division of Contracts and
                              Property Management
                                      (DCPM)




                                                                              Division of Administrative
                                                                                   Services (DAS)




                                                                                                               Division of
                                                                                                                Facilities
                                                                                                                  and
                                                                                                                Security
                                                                                                                 (DFS)




                                                           Time from 3/15/1999 to Present

                 3/15/1999                               6/30/2002                                         12/25/2005 Present


                 As of May 10, 2006, 71 property custodians and 36 alternate
                 property custodians, located in individual NRC offices, assist the
                 Property Branch with property management functions. After the
                 Property Branch assigns property to their accounts, property
                 custodians and their alternates manage and control those accounts
                 by —

                      ¾ Updating records,
                      ¾ Recovering property assigned to separating employees,
                      ¾ Assisting in locating missing property,




8
 This total does not include property custodian and alternate property custodian salaries and overhead
expenses.
                                                          2
                                                                        Audit of NRC’s Non-Capitalized Property



                       ¾ Conducting annual reviews of their property accounts, and
                       ¾ Participating in official biennial inventories.

                   Property System Replaced

                   In June 2005, SPMS replaced the Property and Supply System as
                   the agency’s official property management system. MD 13.1
                   requires that SPMS contain records for all sensitive equipment,9
                   regardless of cost, and accountable non-sensitive equipment10
                   having an acquisition cost of at least $500. Non-sensitive items
                   with an acquisition cost of at least $500 and all sensitive items are
                   assigned a unique blue tag number. Non-sensitive items with an
                   acquisition cost below $500 are assigned a red tag and generally
                   are not recorded in SPMS. The following chart illustrates the
                   percent of items that are sensitive and non-sensitive.


                                       NRC Non-capitalized Property Count
                                         by Sensitive vs. Non-sensitive*
                                                               (n=15,975)



                                              Sensitive
                                                26%




                                                                              Nonsensitive
                                                                                 74%


                              As of 6/13/2006
                              *Excludes OIG and the
                               Technical Training Center



                   Inventories

                   MD 13.1 requires NRC to conduct physical inventories of property
                   every two years. The Property Branch is required to reconcile all
                   discrepancies for missing items with SPMS once an inventory is
                   completed. The Property Branch reports the results to NRC senior

9
  MD 13.1, defines sensitive property as property that is desirable for personal use and can be easily
removed from the premises (e.g., laptop computers, cell phones, etc.).
10
   MD 13.1, defines accountable property as any equipment, excluding furniture and supplies, that is
complete in itself, is of a durable nature with an expected life of 2 years or more, does not ordinarily lose its
identity or becomes a component of another article, and is not consumed in its useful life. Accountable
property is classified either as “sensitive” or as “non-sensitive.”
                                                           3
                                               Audit of NRC’s Non-Capitalized Property



          management after reconciliation. In addition, property custodians
          are required to conduct an annual review of their property accounts
          to certify that the SPMS records are accurate.


II.   PURPOSE

          This audit was conducted to determine whether NRC has
          established and implemented an effective system of management
          controls for maintaining accountability and control of non-
          capitalized property.




                                    4
                                                Audit of NRC’s Non-Capitalized Property



III. FINDINGS

          While NRC’s property management policies for non-capitalized
          property provide a framework to control and safeguard property, the
          program, as implemented, needs improvement to provide effective
          control. Specifically:

             A. SPMS data is not accurate;

             B. Controls for IT property that may contain PII are lacking;

             C. Physical security deficiencies exist; and

             D. The policy for notifying OIG of missing property needs
                improvement.

          A rigorous effort by NRC senior management is needed to initiate
          and sustain improvements to the property management program.

   A.   SPMS Data is Not Accurate

          Although the agency uses SPMS to maintain property records,
          SPMS data is not accurate. This condition exists primarily because
          the property management program lacks adequate accountability.
          Without accurate and reliable records for non-capitalized property,
          NRC is subject to loss of property and information, inefficient use of
          staff time, and potential unnecessary expense.

          Guidance

          The Government Accountability Office (GAO) Standards for Internal
          Control in the Federal Government requires agencies to: (1) record
          transactions promptly and (2) periodically inventory property and
          compare results to property records. NRC guidance requires staff
          to maintain accurate personal property records. Additionally,
          JFMIP Property Management Systems Requirements call for the
          property management system to capture:

                       property identification number,
                       location,
                       current user,
                       identity of property custodian, and
                       accountable organization.


                                        5
                                                                 Audit of NRC’s Non-Capitalized Property



                 SPMS Contains Inaccurate Data

                 Various tests of SPMS records performed by OIG during this audit
                 revealed that SPMS contains inaccurate data. Specifically,
                 location/sub-location information is inaccurate, SPMS contained
                 errors on firearms location/sub-location and serial numbers, and
                 SPMS shows property assigned to separated employees.

                 a.     SPMS Location/Sub-Location Information is Inaccurate

                 SPMS does not accurately reflect the location and sub-location11 for
                 many non-capitalized property items. The results of OIG’s
                 unannounced physical inventory of a statistical random sample of
                 non-capitalized property at NRC Headquarters, Region III, and
                 Region IV are summarized in the following table.12

                                                     Error Rates

                                                    The Percent of Errors             The Percent of Errors
                          Percent of Errors          Could be as Low as                Could be as High as
     Headquarters              37.5%                       31.58%                            43.52%
     Region III                 6.1%                         .3%                             11.82%
     Region IV                 17.1%                       8.31%                             25.97%

                 Reference to the first line of the table reveals that there was a
                 37.5 percent error rate for headquarters’ location/sub-location data
                 in SPMS. We can project the sample results to all of headquarters
                 and say, with 95 percent confidence, that the location/sub-location
                 error rate could be as low as 31.58 percent and as high as 43.52
                 percent. The table reflects the sample results and 95 percent
                 confidence for Regions III and IV as well.13 The cumulative
                 acquisition cost associated with the high-end of the projection is
                 $7.42 million at headquarters, and over $8 million for all three
                 locations.




11
   Sub-location means the room or cubicle designation within a building.
12
   OIG requested that the agency perform follow-up effort to locate the items identified as missing,
as a result of our unannounced physical inventory, and correct SPMS.
13
   Subsequent to OIG’s sample physical inventory, personnel from Regions III and IV located the missing
property for OIG auditors. Reportedly, Region IV personnel updated SPMS location/sub-location information
accordingly.
                                                   6
                                                                 Audit of NRC’s Non-Capitalized Property



                   b.    SPMS Contained Errors on Firearms Location/Sub-
                         Location and Serial Numbers

                   OIG found that SPMS contains inaccurate data for NRC firearms.
                   During an unannounced physical verification to locate 48 Office of
                   Investigations’ firearms,14 OIG found incorrect information recorded
                   in SPMS.

                   Specifically, of the 48 firearms, SPMS showed 17 firearms as being
                   located at headquarters. Only 2 of these 17 firearms were actually
                   located at headquarters. A third firearm located at headquarters
                   was shown in SPMS as being located in Region I. Subsequently,
                   based on information contained in Office of Investigations’ records,
                   OIG accounted for the remaining 45 firearms. OIG auditors
                   accounted for all 48 firearms included in our test.

                   OIG also noted that the serial numbers for 13 of the 48 firearms
                   contained typographic errors. Because of the highly sensitive
                   nature of this property, the recording of accurate serial numbers for
                   firearms is particularly important.

                   c.    SPMS Shows Property Assigned to Separated Employees

                   MD 13.1 requires that “…all Government-furnished property …
                   assigned to NRC employees be returned [to the property custodian]
                   or accounted for at least 10 working days before separation, and all
                   items must be returned before clearance from NRC.” MD 13.1
                   also requires property custodians to reassign sensitive equipment
                   before the Property Branch can approve separation clearance for
                   an individual.

                   OIG’s analysis of SPMS records revealed that, as of
                   August 11, 2006, 39 (or 10.7 percent) of 366 employees who
                   separated between January 1, 2005, and June 30, 2006, had a
                   cumulative total of 106 items with a total acquisition cost of
                   $110,188 still assigned to them. Of the 39 separated employees,
                   six had sensitive property assigned, consisting of four laptop
                   computers, four cell phones, and three cameras. One separated
                   Office of Nuclear Security and Incident Response employee had 17
                   items assigned to his name with a total acquisition cost of $34,710.
                   In some cases, property remained assigned to separated
                   employees for as long as 18 months beyond their effective date of
                   separation from the agency. OIG requested that the agency
                   perform follow-up effort to locate these items and correct SPMS.


14
     The 48 firearms were handguns, 16 manufactured by Smith & Wesson, 32 manufactured by Glock.
                                                   7
                                                                  Audit of NRC’s Non-Capitalized Property



                 Reasons for Inadequate Property Management

                 SPMS contains inaccurate property records because the property
                 management program lacks adequate accountability and the
                 threshold for accounting and controlling non-sensitive property is
                 too low.

                 Inadequate Accountability

                 OIG believes the following areas contribute to the lack of
                 accountability:

                          Reorganizations and Changes in Management

                 Frequent reorganizations and changes in management in the
                 Property Branch do not create an effective control environment that
                 fosters monitoring and continuous process improvements.
                 Management continuity is critical to achieve focused and sustained
                 program improvements.

                          Senior Executives

                 Senior Executives’ performance plans and appraisals do not reflect
                 accountability for property management. Accordingly, little
                 attention and low priority are given to the property management
                 function.

                          Property Custodians

                 Property custodian duties and responsibilities are essential to
                 maintaining an effective, efficient, and accurate property
                 management program. However, property custodians’ elements
                 and standards generally do not reflect property management duties
                 and responsibilities,15 despite the fact that the Director, Office of
                 Administration (ADM), issued a memorandum, dated
                 September 25, 2001, requesting that position descriptions be
                 updated appropriately. ADM reissued the memorandum on
                 October 10, 2006.

                          Performance Measures

                 NRC’s performance measures for property management evaluate
                 performance after inventory reconciliation activities. Measuring the
                 accuracy after reconciliation does not provide transparency

15
  OIG found that only 24 out of 69 property custodians’ elements and standards included property
custodian duties as of August 2006.
                                                    8
                                                                Audit of NRC’s Non-Capitalized Property



                 regarding the property custodians’ performance of maintaining
                 accurate SPMS records. This does not enable effective monitoring
                 of program performance, accuracy, or easy identification of
                 program improvements.

                         Property Custodian Training

                 Property custodians are not required to take formal periodic
                 training. Instead, they are provided an SPMS Users Guide and
                 advised to call the Property Branch, if needed. The Property
                 Branch conducts training on a one-on-one basis upon request. The
                 effective accounting and control of non-capitalized property relies
                 heavily on the performance of property custodians, therefore, it is
                 critical that property custodians receive formal periodic training.

                 Reporting Threshold is Too Low

                 The threshold for recording accountable non-sensitive property in
                 SPMS is $500. There are 4,485 non-sensitive items with an
                 approximate acquisition cost of $2.2 million currently recorded in
                 SPMS, with a value between $500 and $1,000. Property
                 custodians’ recording and monitoring these inexpensive items takes
                 time away from maintaining accurate and reliable property records
                 for sensitive and more expensive items. OIG contacted other
                 Federal agencies16 and learned that their threshold for recording
                 accountable property in their respective property management
                 systems ranged from $50 - $5,000. Raising NRC’s threshold for
                 reporting accountable non-sensitive property in SPMS from $500 to
                 $1,000 would reduce the number of items tracked in SPMS by 37
                 percent (72 percent minus 35 percent) while still accounting for 84
                 percent of the dollar value of property that is both non-capitalized
                 and non-sensitive (see the following chart).




16
  Other Federal agencies contacted were the Small Business Administration, National Oceanic and
Atmospheric Administration, and the Office of Personnel Management.
                                                  9
                                                                                  Audit of NRC’s Non-Capitalized Property



                                         Impact of Accountable Thresholds on SPMS17

                                              100%   100%

                                  100%                               93%

                                   90%                                               84%
                                                                                                       78%
                                   80%                      72%                                                        73%

                                  70%
                   % of Current   60%
                                  50%
                                                                            35%
                                  40%
                                                                                              26%
                                  30%                                                                          21%

                                  20%
                                  10%
                                   0%
                                         Current Database   ≥ $500         ≥ $1000           ≥ $1500         ≥ $2000

                                                                                                             # Items as % of Current
                                                                                                             Acq $ as % of Current




                 Risk of Loss of Property and Information

                 Accurate and reliable information on the location and sub-location
                 of property is essential for NRC to assure the optimum use of
                 property and the efficient use of staff time. The high level of errors
                 found in SPMS combined with property assigned to separated
                 employees:

                                          ¾ Increases the risk of loss of property and information,
                                          ¾ Results in inefficient use of staff time, and
                                          ¾ May result in unnecessary expense.

                 Recommendations

                 OIG recommends that the Executive Director for Operations:

                 1.                  Incorporate responsibility for property management into the
                                     Senior Executive Service Performance Plan and Appraisal.

                 2.                  Incorporate property management duties and responsibilities
                                     into all property custodian and alternate property custodian
                                     performance evaluations.

                 3.                  Develop and implement performance measures to provide
                                     transparency of inventory results immediately after the
                                     physical inventory is taken.

17
  The number of items and acquisition costs taken from SPMS and used as the basis for the chart excludes
capitalized property and sensitive property.
                                                                  10
                                     Audit of NRC’s Non-Capitalized Property



4. Provide formal periodic mandatory property management
   training to property custodians and their alternates.

5. Raise the threshold for recording non-sensitive property in
   SPMS to $1,000.




                          11
                                                                  Audit of NRC’s Non-Capitalized Property



      B.     Controls for Information Technology Property That May Contain
             Personally Identifiable Information Are Lacking

                 Although, NRC has initiated improvements for protecting PII as
                 required by OMB and NRC guidance,18 not all reports of potential
                 releases of PII are reported to the Office of Information Services
                 (OIS) as required. This condition exists because a control is
                 lacking on NRC Form 395, “Report of Property for Survey,” to flag
                 missing property capable of storing PII and requiring coordination
                 with the OIS. Without this critical internal control, NRC is at risk of
                 not detecting potential or actual releases of PII, and of not
                 mitigating the damage caused by such releases.

                 As of March 2006, NRC staff had not found 25 items capable of
                 storing PII identified as missing during the FY 2005 biennial
                 inventory. However, the staff filed no reports of potential releases
                 of PII to OIS. OIG requested that the agency perform follow-up
                 effort to locate these items.

                 While the Agency has increased efforts to protect PII, these efforts
                 do not include improving the process for reporting missing IT
                 property that may contain PII. NRC Form 395 does not include a
                 field to alert agency personnel about a possible release of PII due
                 to missing IT devices such as laptops, personal digital assistants,
                 and cell phones. Currently, Form 395 preparers are not required to
                 report —

                      ¾ Whether missing IT property contains/may contain PII, or
                      ¾ Whether OIS has been alerted, as warranted.

                 Additionally, in instances involving missing IT property, MD 13.1
                 procedures for reporting the loss or theft does not reference
                 MD 12.5, NRC Automated Information Security Program, and does
                 not include procedures for coordinating with the OIS.

                 Without adequate controls for IT property that may contain PII,
                 NRC is at risk of not detecting potential or actual releases of PII
                 and of not mitigating the damage caused by such releases.




18
   OMB guidance dated June 23, 2006, memorandum (M-06-16), "Protection of Sensitive Agency
Information," and Chairman Klein’s memorandum dated July 26, 2006, "Protection of Personal Privacy
Information." NRC is required to ensure that any files or images that may contain PII are adequately
protected from unauthorized access.

                                                   12
                                   Audit of NRC’s Non-Capitalized Property



Recommendations

OIG recommends that the Executive Director for Operations:

   6. Modify NRC Form 395 to include a field for reporting
      instances to OIS when missing NRC property contains or
      may contain personally identifiable information.

   7. Modify Management Directive 13.1, “Property Management,”
      to reference, where applicable, Management Directive 12.5,
      “NRC Automated Information Security Program,” to include
      procedures for coordinating with OIS regarding missing
      property that contains or may contain PII.

   8. Issue interim guidance to accomplish the intent of
      Recommendation 7, pending revision of Management
      Directive 13.1.




                        13
                                                                  Audit of NRC’s Non-Capitalized Property



         C.    Physical Security Deficiencies Exist

                   Four rooms, containing equipment vital to the continuity of agency
                   operations and valued in excess of $1 million, were found
                   unsecured during OIG’s unannounced sample inventory at NRC's
                   Headquarters. GAO guidance19 requires that vulnerable assets
                   must be safeguarded to prevent loss or unauthorized use.
                   Unsecured rooms, caused by lack of due care exercised by
                   employees/contractors, could lead to:

                       •    Interruptions to agency operations,
                       •    Loss of property and/or PII, and
                       •    Unnecessary expense.

                   Physical Security Guidance

                   MD 12.5, NRC Automated Information Security
                   Program, requires controls be in place to protect
                   NRC buildings, facilities, and related supporting
                   infrastructures that house essential resources, such
                   as data centers, server rooms, rooms that contain
                   telecommunications equipment and wiring closets.
                   For instance, as shown in the photograph, certain
                   rooms containing servers and/or
                   telecommunications equipment have multiple locks.

                   These controls protect against potential threats to
                   the physical environment and are intended to help prevent:

                       •    interruptions in computer services,
                       •    physical damage,
                       •    unauthorized disclosure of information,
                       •    loss of control over system integrity, and
                       •    theft.

                   In addition, the directive provides guidance on protection against
                   insider threats posed by disgruntled employees or contractors who
                   may attempt to:

                        •   intentionally disrupt computer operations,

19
     GAO Standards for Internal Control in the Federal Government, November 1999.
                                                    14
                                       Audit of NRC’s Non-Capitalized Property



    •   gain unauthorized access to network resources or services,
        or
    •   perform other related unauthorized activities.

Physical Security Observations

During this audit, OIG found four rooms at headquarters with
computer and telecommunication equipment unsecured. Many of
these items are capable of storing PII. The initial acquisition cost of
the 144 items reported in SPMS as being located in the four rooms
was in excess of $1 million.

One of the four rooms found unsecured
is labeled, "Authorized Personnel Only,"
and is protected by a card reader,
keypad, and door lock (see photo).

During the physical verification of
property, OIG auditors gained entry to
this room through an unlocked door
(i.e., no card or key code was needed)
and the room was unattended. A
system query by OIG found that this
room contained 40 items (primarily high
value computer equipment) with an
acquisition cost of $519,168.

Another unsecured room contained system units and
telecommunications equipment. The room was protected by a
push button deadbolt lock and two keyed locks; however, OIG
auditors found the door propped open. A system query found that
this room contained 17 items with an initial acquisition cost of
$116,198.

Additionally, as shown in the
photograph, auditors were able to
enter another unsecured and
unattended room containing
system units and other computer
equipment. The room was not
protected by a card reader and the
door lock was broken. A system
query revealed that this room
contained 63 items with an initial
acquisition cost of $367,935.
SPMS listed 2 of the 63 items as
laptop computers.
                           15
                                      Audit of NRC’s Non-Capitalized Property



Additionally, three headquarters telephone equipment closets were
identified as unsecured and unattended in a prior OIG audit report,
OIG-05-A-13, Audit of NRC’s Telecommunications Program, dated
June 7, 2005.

Based on these observations, OIG concludes that employees
and/or contractors did not exercise due care.

Impact on Agency Operations

IT equipment left unattended and unsecured is more likely to be
lost or stolen risking a potential information security breach. In
recent months, media reports of laptop computer thefts from
various Federal agencies has raised the public’s sensitivity to risks
associated with the loss of PII. Without due care by employees and
contractors to assure that rooms containing IT equipment are
appropriately secured, NRC risks a possible release or theft of PII
pertaining to employees, licensees, or other stakeholders. A
release or theft of PII could result in significant damage to an
individual’s identity and could compromise the public’s confidence
in the agency.

Unauthorized access to agency computer or telecommunication
systems could lead to potential interruptions of agency operations
due to intentional or accidental damage. Unsecured rooms leave
NRC vulnerable to intentional damage (i.e. cutting of cables,
breaking components, etc.) by a disgruntled employee or contractor
or accidental damage by someone that may mistake the space to
be a storage area.

Recommendations

OIG recommends that the Executive Director for Operations:

9.   Reemphasize the importance of physical security to both
     employees and contractors using means such as yellow
     announcements or posters.

10. Periodically survey NRC buildings to ensure that physical
    security measures (i.e. locks, latches, door closers, badge
    readers, etc.) are functioning as intended for rooms containing
    mission critical equipment.




                          16
                                              Audit of NRC’s Non-Capitalized Property



D.   Policy for Notifying OIG of Missing Property Needs Improvement

        Although MD 13.1 requires OIG notification for incidents involving
        suspected theft of NRC property, in OIG’s opinion, the emphasis on
        “suspected” theft has caused staff to frequently characterize
        missing property as simple loss rather than theft. While it is
        commonly understood that the timeliness of reporting missing
        property has a direct correlation to the likelihood of recovering it,
        OIG received few security incident reports regarding missing non-
        capitalized property in recent years. Unless OIG is notified of
        incidents of missing accountable property, the opportunity for OIG
        and other law enforcement officials to assist the agency with
        recovering property may be missed and potential wrongdoing may
        go undetected.

        During FYs 2005 and 2006, agency staff filed approximately 130
        NRC Form 395s for missing property. However, during this same
        two-year period, staff filed only two security incident reports for
        suspected theft of NRC property, resulting in OIG notification.

        Since the prevailing attitude for missing property emphasizes loss
        rather than suspected theft, OIG may not have received all reports
        of missing property that warrant investigation. Unless NRC notifies
        the OIG Assistant Inspector General for Investigations of all
        instances requiring Form 395s in a timely manner —

                  ¾ Cases that may warrant OIG investigation may go
                    undetected, and

                  ¾ The agency compromises the likelihood of recovering
                    missing property.

        Recommendations

        OIG recommends that the Executive Director for Operations:

        11. Collaborate with OIG to modify NRC Management Directive
            13.1, “Property Management,” to develop a process for
            notifying the OIG Assistant Inspector General for
            Investigations of all reports (i.e., Form 395s) of missing
            sensitive property (regardless of value) and missing non-
            sensitive property with a current value of at least $1,000.

        12. Issue interim guidance to accomplish the intent of
            Recommendation 11, pending revision of Management
            Directive 13.1.

                                  17
                                       Audit of NRC’s Non-Capitalized Property



Summary

Although it is NRC’s policy “to manage and use property and
supplies in its possession or its contractors’ possession effectively
and efficiently and to provide sufficient controls to deter or eliminate
loss through fraud, waste, or misuse”; the program, as
implemented, needs improvement. NRC’s property management
program lacks adequate controls to assure that—

   ¾ SPMS records are accurate,

   ¾ Staff alert OIS when IT equipment capable of storing PII is
     missing,

   ¾ Employees and contractors exercise due care to physically
     secure rooms containing expensive equipment important to
     the continuity of NRC operations, and

   ¾ OIG Assistant Inspector General for Investigations is
     appropriately notified of missing property.

In light of NRC’s imminent growth in FTEs, and anticipated office
relocations, it is increasingly important that NRC maintain effective
and efficient accounting and control over non-capitalized property.
Therefore, now is an opportune time for NRC management to
increase accountability for, and improve control of, the property
management program. An effective and efficient property
management program is essential to assure that staff have the
property needed to carry out their duties and assure optimum
utilization of staff time, property and fiscal resources.




                           18
                                            Audit of NRC’s Non-Capitalized Property



IV. AGENCY COMMENTS

       At an exit conference held on June 26, 2007, agency managers
       generally agreed with the audit findings and recommendations and
       provided comments concerning the draft audit report. We modified
       the report in response to the comments, as we deemed
       appropriate. NRC reviewed these modifications and opted not to
       submit formal written comments for the final version of this report.




                                 19
                           Audit of NRC’s Non-Capitalized Property




[Page intentionally left blank.]




              20
                                             Audit of NRC’s Non-Capitalized Property



V. CONSOLIDATED LIST OF RECOMMENDATIONS

        OIG recommends that the Executive Director for Operations:

        1. Incorporate responsibility for property management into the
           Senior Executive Service Performance Plan and Appraisal.

        2. Incorporate property management duties and responsibilities
           into all property custodian and alternate property custodian
           performance evaluations.

        3. Develop and implement performance measures to provide
           transparency of inventory results immediately after the physical
           inventory is taken.

        4. Provide formal periodic mandatory property management
           training to property custodians and their alternates.

        5. Raise the threshold for recording non-sensitive property in
           SPMS to $1,000.

        6. Modify NRC Form 395 to include a field for reporting instances
           to OIS when missing NRC property contains or may contain
           personally identifiable information.

        7. Modify Management Directive 13.1, “Property Management,” to
           reference, where applicable, Management Directive 12.5, “NRC
           Automated Information Security Program,” to include
           procedures for coordinating with OIS regarding missing property
           that contains or may contain PII.

        8. Issue interim guidance to accomplish the intent of
           Recommendation 7, pending revision of Management
           Directive 13.1.

        9. Reemphasize the importance of physical security to both
           employees and contractors using means such as yellow
           announcements or posters.

       10. Periodically survey NRC buildings to ensure that physical
           security measures (i.e. locks, latches, door closers, badge
           readers, etc.) are functioning as intended for rooms containing
           mission critical equipment.




                                  21
                                     Audit of NRC’s Non-Capitalized Property



11. Collaborate with OIG to modify NRC Management Directive
    13.1, “Property Management,” to develop a process for notifying
    the OIG Assistant Inspector General for Investigations of all
    reports (i.e., Form 395s) of missing sensitive property
    (regardless of value) and missing non-sensitive property with a
    current value of at least $1,000.

12. Issue interim guidance to accomplish the intent of
    Recommendation 11, pending revision of Management
    Directive 13.1.




                          22
                                                                Audit of NRC’s Non-Capitalized Property


                                                                                           Appendix A
SCOPE AND METHODOLOGY

                 To accomplish the audit objective, OIG identified and analyzed
                 pertinent laws, regulations, authoritative guidance, NRC policies
                 and procedures, and prior relevant NRC OIG reports. OIG also
                 obtained and analyzed information from three other Federal
                 agencies20 related to their property program best practices.

                 Working with NRC’s statistician, OIG designed and implemented a
                 statistical sample to test the accuracy of location/sub-location
                 information of property records in SPMS for headquarters, Region
                 III and Region IV. The results of the sample were projected to the
                 universe of each of the three locations, with a 95 percent
                 confidence level.

                 In addition, OIG reviewed the Office of Administration’s property
                 program metrics and performed various tests of internal controls
                 associated with non-capitalized property recorded in SPMS.

                 OIG also conducted interviews with selected headquarters and
                 regional officials to:

                     ¾ Gain an understanding of NRC’s property management
                       operations;

                     ¾ Determine current issues, problems, or known deficiencies;
                       and

                     ¾ Assess internal controls.

                 This audit did not include a review of property assigned to OIG,21
                 NRC’s Technical Training Center,22 NRC’s Warehouse,23 or
                 Department of Energy Laboratories.24 OIG conducted this audit in
                 accordance with Generally Accepted Government Auditing
                 Standards from May 2006 through March 2007.



20
   OIG obtained and analyzed information from the Office of Personnel Management, the National Oceanic
and Atmospheric Administration, and the Small Business Administration.
21
   Property assigned to OIG was removed from the scope because the OIG cannot audit itself.
22
   Property management at NRC’s Technical Training Center was excluded from the scope of this audit
because it was included in the 2007 Audit of NRC’s Technical Training Center.
23
   Property management at NRC’s Warehouse was excluded from this audit because OIG plans to conduct
an audit on the Warehouse in the future.
24
   Oversight of property purchased with NRC funds by Department of Energy Laboratories was excluded
from this audit because OIG plans to perform an audit of the placement and monitoring of work at DOE
Laboratories that will include property management.
                                                  23
                                    Audit of NRC’s Non-Capitalized Property



The major contributors to this report were Steven Zane, Team
Leader; Debra Lipkey, Audit Manager; Kathleen Stetson, Audit
Manager; Michael Steinberg, Senior Auditor; Terri Cooper, Senior
Auditor; Robert Woodward, Auditor and Christopher Lange,
Management Analyst.




                         24
